FAA’S IMPLEMENTATION OF RUNWAY
          STATUS LIGHTS
      Federal Aviation Administration
       Report Number: AV-2008-021
      Date Issued: January 14, 2008
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA’s Implementation of Runway                     Date:    January 14, 2008
           Status Lights
           Federal Aviation Administration
           Report Number AV-2008-021
  From:    David A. Dobbs                                          Reply to
                                                                   Attn. of:   JA-1
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Acting Federal Aviation Administrator

           This report provides the results of our review of the Federal Aviation
           Administration’s (FAA) implementation of Runway Status Lights (RWSL). We
           conducted this review as part of our ongoing efforts to assess FAA’s actions to
           reduce runway incursions. The objectives of our audit were to (1) determine
           RWSL’s viability for reducing runway incursions and (2) assess FAA’s progress
           in implementing the system. Our review was conducted between June and
           January of 2008 and included site visits to Dallas/Fort Worth International Airport
           (DFW) and FAA Headquarters. Exhibit A details our scope and methodology.

           BACKGROUND
           Most runway incursions (potential collisions on a runway) are caused by a lack of
           situational awareness, and over half of all runway incursions are the result of pilot
           deviations. However, there is currently no automated technology in place to
           directly warn pilots of potential runway conflicts. Reducing runway incursions
           has been on the National Transportation Safety Board’s (NTSB) Most Wanted List
           of Safety Improvements since the list’s inception in 1990. However, NTSB
           considers FAA’s response to this safety improvement to be unacceptable because
           it has not yet implemented a technology that gives immediate warnings of
           probable runway incursions directly to flight crews in the cockpit.

           During our recent audit of FAA’s efforts to reduce runway incursions, we met
           with a safety team from the Air Line Pilots Association, International (ALPA) to
           discuss runway incursion mitigation. ALPA officials told us that RWSL, a
                                                                                    2


technology that FAA is evaluating, could be an effective tool for reducing runway
incursions.

RWSL was first developed and demonstrated at Boston Logan International
Airport in the early 1990s, but the surveillance systems available at that time
needed improvements before the technology could be viable. In 2003, a prototype
system was installed at DFW. A second prototype system was also installed at
San Diego International Airport in 2005. Testing of these systems continues at
both locations.

What Is RWSL?
RWSL technology uses automated, surveillance-driven lights that work as an
independent, direct warning system to alert pilots in departing or crossing aircraft
that the runway is occupied. The lights are installed at runway/taxiway
intersections and at departure points along the runways. Lights illuminate red
when it is unsafe to cross or depart from a runway, thus serving to increase the
crew’s situational awareness and decrease the potential for a runway incursion.

What Are Its Components?
RWSL consists of both runway entrance lights and take-off hold lights. Runway
entrance lights illuminate red when a runway is unsafe to enter or cross (see
figure 1). Runway entrance lights are visible to aircraft from taxiways holding
short of runway intersections.
  Figure 1. Diagram of Entrance Lights            Figure 2. OIG Photo of Entrance
                                                           Lights at DFW



                                                 Runway entrance       Runway 18L
                                                     lights




The audit team observed DFW runway entrance lights illuminate red on taxiway B
when runway 18L was unsafe to enter due to an aircraft taking off (see figure 2).
                                                                                       3


Take-off hold lights illuminate red to indicate an unsafe condition when an aircraft
is in position for take-off and another aircraft or vehicle is either on or about to
enter the runway in front of it (see figure 3). Take-off hold lights are visible from
the take-off hold position.

                  Figure 3. Diagram of Take-Off Hold Lights




                                           Figure 4. OIG Photo of Take-Off Hold
The audit team observed take-off                      Lights at DFW
hold lights illuminate red on runway
18L at DFW when the runway was
unsafe to depart due to an aircraft
crossing the runway in the distance
(see figure 4).                                                    Aircraft crossing
                                                                     the runway

FAA is also developing a third type            Take-off hold
                                                  lights
of runway status lights, runway
intersection lights. These lights are
designed to warn pilots on a runway
when another aircraft is departing
from or landing on an intersecting
runway. FAA plans to begin testing
these lights at Chicago O’Hare
International Airport in 2008.


What Drives the System?
RWSL is driven by fused multi-sensor surveillance system information. Using
Airport Surface Detection Equipment-Model X (ASDE-X), external surveillance
information is taken from three sources that provide position and other
information for aircraft and vehicles on or near the airport surface. RWSL safety
logic processes the surveillance information and commands the field lighting
system to turn the runway status lights on and off in accordance with the motion of
the detected traffic. The diagram of RWSL below (figure 5) depicts the use of
                                                                                   4


three sources of surveillance input to provide position of aircraft and vehicles on
the airport surface.

              Figure 5. Diagram of RWSL Surveillance Sources




At DFW, RWSL uses input from the ASDE-X prototype system, which uses three
sources of surveillance: (1) Terminal Radar—Airport Surveillance Radar (ASR),
(2) Airport Surface Radar—Airport Surface Detection Equipment-Model 3
(ASDE-3), and (3) Transponder Multilateration System.

RESULTS IN BRIEF
We found that RWSL is a viable technology for preventing runway incursions.
While FAA has made progress in developing RWSL, this technology is still in the
early stages of implementation; much work remains for FAA to achieve full
deployment. Essential attributes of RWSL include the following:

 • Timely warnings of potential conflicts—RWSL promptly and clearly indicates
   to pilots and vehicle operators when it is unsafe for aircraft to enter or cross a
   runway or to commence take-off.

 • Automated information—RWSL provides this information at all times without
   human input.

 • No interference with Air Traffic operations—RWSL acts as an independent
   safety enhancement. It does not increase controller workload and does not
                                                                                 5


   interfere with the normal flow of airport traffic or rhythm of controller
   movement of traffic.

 • Lights indicate status only—RWSL indicates runway status and does not
   convey an Air Traffic Control clearance. Clearance is still provided by Air
   Traffic Control.

 • Illuminated lights warn pilots of potential runway conflicts and prompt them to
   notify the tower before proceeding if a contradicting clearance has been issued;
   therefore, the system may also help to identify potential controller operational
   errors.

During operational evaluations and subsequent modifications at DFW for runway
entrance lights and take-off hold lights, RWSL met or exceeded all performance
criteria specified in the RWSL Research Management Plan. In addition, all
system users we met with at DFW agreed that RWSL works as intended and has
no known negative impact on capacity, communication, or safety.

Further, runway incursions on the test runway at DFW (runway 18L/36R) have
decreased by 70 percent: during the 29 months before testing (October 1, 2002,
through February 28, 2005), 10 runway incursions occurred at DFW; during the
29 months after testing (March 1, 2005, through July 31, 2007), only 3 occurred.

While RWSL at DFW has performed extremely well thus far, we identified
several challenges that FAA must address to ensure the effective and timely
implementation of this important safety technology. For example,

 • RWSL depends on ASDE-X, and the interface between the two systems will
   need to be modified to address the differences between the ASDE-X prototype
   system used at DFW for RWSL and the version of ASDE-X being deployed
   nationally at other airports.

 • Some of the airports where FAA plans to deploy RWSL are undergoing or will
   undergo airfield improvements. It will be important for the RWSL program
   office to work with FAA’s Airports line of business to identify those airports
   and coordinate the deployment of RWSL in-ground infrastructure concurrently
   with airfield construction. This will help to save investment dollars by
   avoiding duplicative construction and ensure timely implementation of both
   infrastructure improvements and RWSL.

 • Part of the early success of RWSL testing has been immediate input and
   corrective actions taken by the research and development (R&D) staff
   (including the federally funded research contractor that created the system)
   when problems were identified. A key factor for maintaining project
                                                                                     6


   momentum will be ensuring that similar “hands-on” knowledge is retained
   during the transition from R&D to the acquisition phases of the RWSL life
   cycle.

Meeting these challenges in the early phases of RWSL implementation will be
critical for keeping it on track.

FAA has made progress in developing RWSL thus far. FAA successfully
conducted R&D and live operational testing at DFW, and FAA’s Joint Resource
Council (JRC) approved the RWSL initial investment decision in July 2007. The
initial investment decision document included recommendations that FAA finalize
(definitize) its acquisition strategy and return it to the JRC for the final investment
decision (which sets the stage for system-wide implementation) no later than
November 2007.

Obtaining approval from the JRC for the final investment decision is a key
milestone because FAA cannot issue a contract for RWSL implementation until
the program office obtains that approval. However, the target date for the final
investment decision is currently set for July 2008. The RWSL program officials
stated that the final investment decision milestone was established to provide
sufficient time to prepare the acquisition package, which is required to award a
contract.

Expediting the RWSL acquisition is important since the JRC directed the program
office, during the initial investment decision, to review alternatives to accelerate
the RWSL deployment schedule. In our opinion, setting the target date for the
final investment decision 1 year after the approval of the initial investment
decision to complete the acquisition package does not meet that direction.
Accordingly, we believe that the program office needs to expedite preparation of
the acquisition package and establish a new target date for the final investment
decision milestone to accelerate RWSL deployment.

Our recommendations focus on the actions FAA needs to take now to ensure that
the system remains a viable tool for reducing runway incursions and that future
deployment remains on schedule. Our full recommendations are listed on page 13.
                                                                                                    7



FINDINGS
We found that RWSL is a viable and important technology for reducing runway
incursions and that FAA has made progress in developing it. RWSL has gained
widespread support among user groups. Pilots, pilot union officials, Air Traffic
management, and the airport operator at DFW all agreed that RWSL works as
intended and has no known negative impact on capacity, communication, or
safety. NTSB officials stated that RWSL is a promising technology for addressing
its longstanding recommendation to provide direct warnings to pilots of potential
runway conflicts. Further, the local National Air Traffic Controllers Association
representative stated that RWSL has no impact on air traffic controllers’ duties and
responsibilities. While RWSL is only one of many efforts to improve runway
safety, FAA recognizes the need to expedite technologies that increase cockpit
crews’ situational awareness and thus potentially reduce runway incursions.
Several challenges need to be addressed, however, before the system can be
effectively deployed.

RWSL Is a Viable Technology for Reducing Runway Incursions
RWSL promptly and clearly indicates to pilots and vehicle operators when it is
unsafe for aircraft to enter or cross a runway or to commence take-off. RWSL
provides this information automatically at all times without human input. As
shown in figure 6, runway incursions have significantly decreased on the RWSL
test runway at DFW—from 10 to 3 (70 percent) for the periods compared.

                 Figure 6. Number of Runway Incursions at DFW’s
                     Runway 18L/36R Where RWSL Is Installed
                     12
                                     10
                     10
                      8
                      6
                                                               3
                      4                                                             Category D *
                      2                                                             Category C
                      0
                            29 Months Before        29 Months After Start
                             Start of Testing         of Testing (3/1/05
                             (10/1/02 through          through 7/31/07)
                                  2/28/05)
                   * R unway incursio ns are graded by severity o f the incident (A thro ugh D ).
                   C atego ry A is the mo st severe, and C atego ry D is the least severe.


                   Source: OIG analysis of FAA data

Of the three runway incursions that occurred after testing began, one was caused
by a pilot, one by a vehicle operator, and one by a controller.
                                                                                  8


We observed RWSL in operation at DFW from the vantage points of the airport
surface and the control tower. We observed that RWSL acts as an independent
safety enhancement. It does not increase controller workload and does not
interfere with the normal flow of airport traffic or rhythm of controller movement
of traffic. Further, RWSL only indicates runway status—it does not convey Air
Traffic Control clearance to pilots. Clearance is still provided by Air Traffic
Control.

RWSL may provide additional safety benefits as it has shown the capability to
prevent runway incursions caused by air traffic controllers (operational errors). In
a documented example at DFW, RWSL prevented an operational error and a
runway incursion. The error playback showed that the pilot of a taxiing aircraft
questioned a runway crossing clearance given by the ground controller when
runway status lights were illuminated red, indicating the runway was not clear. In
response, the controller cancelled the runway crossing clearance and another
aircraft’s landing clearance, thus avoiding both an operational error and a runway
incursion.

FAA Has Made Progress in Developing RWSL but Needs To Address
Several Challenges To Effectively Deploy the System
We found that FAA has made progress in developing RWSL thus far. During
operational evaluations and subsequent modifications for runway entrance lights
and take-off hold lights at DFW, RWSL met or exceeded performance criteria
specified in the RWSL Research Management Plan. Most of the anomalies
identified during initial tests have been mitigated. In addition, stakeholders and
users at DFW reported that the FAA contractor was responsive to feedback and
took quick and effective actions when system anomalies were identified. FAA
successfully conducted R&D and live operational testing at DFW, and FAA’s
Joint Resource Council approved the RWSL initial investment decision in July
2007.

RWSL appears to be a viable technology, and FAA is moving toward
implementation; however, the Agency will need to address several challenges that
may impede the timely and effective deployment of the system. These include: (1)
modifying the interface between RWSL and ASDE-X to address the differences in
the ASDE-X prototype system at DFW and ASDE-X systems being deployed at
other airports, (2) coordinating with airports that are undergoing runway
improvements and planning to deploy RWSL in-ground infrastructure
concurrently with airfield construction, (3) ensuring that “hands-on” RWSL
expertise is maintained during the transition from R&D to the acquisition phase;
(4) equipping vehicles with transponders; and (5) mitigating delays in
implementing ASDE-X.
                                                                                 9


Modifying RWSL To Address Differences Between the ASDE-X Prototype
System at DFW and the National ASDE-X System
Before RWSL can be deployed system-wide, FAA will need to modify RWSL to
address differences between the ASDE-X prototype system at DFW and the
ASDE-X system it is deploying at other airports. The ASDE-X system used to
test RWSL at DFW was purchased by the Airport Authority in 2001 and is not
part of FAA’s current, national ASDE-X program. The ASDE-X prototype
system at DFW differs in that it does not include the fusion of ASDE-3 surface
radar and ASR-9 approach radar.

The national ASDE-X system has undergone additional changes since 2001. As a
result, there are differences that could affect how RWSL software needs to be
programmed so that it works as effectively at other locations as it has at DFW.
For example, the ASDE-X prototype system at DFW has not received any of the
hardware upgrades installed on the ASDE-X systems being deployed under the
national program.

We also found that the ASDE-X prototype fusion process at DFW for RWSL
differs from the process used for the national ASDE-X system. This is the process
that ASDE-X uses to estimate the location of aircraft and vehicles on the airport
surface. It does this by gathering inputs from the three different surveillance
mechanisms. For example, for RWSL, ground radar data are transmitted to the
RWSL processor separate from other surveillance inputs. By doing so, RWSL has
been able to operate effectively during rain because the RWSL safety logic is able
to turn off radar data and use multilateration data (from local transponders) only,
thus eliminating the impact of rain-induced radar clutter. However, the fusion
process used by the national ASDE-X system fuses all three surveillance inputs
into one data output. Consequently, an alternative method for filtering rain-
induced clutter will have to be implemented and tested to ensure continued reliable
RWSL operation. FAA needs to modify RWSL software to address the
differences between these systems during early RWSL implementation to limit
risks of delays or impaired effectiveness.

Coordinating With Airports To Deploy RWSL In-Ground Infrastructure
Concurrently With Airfield Construction
FAA will also need to coordinate with airports that are undergoing airfield
construction to ensure that RWSL is installed concurrently to limit unnecessary
construction efforts and costs. Although RWSL has progressed through the initial
investment decision process, it is not yet a certified system. Therefore, airports
cannot use FAA funds (i.e., grants from the Airport Improvement Program) for
early installation of RWSL lighting. Nevertheless, several airports, including
Los Angeles and Chicago O’Hare International Airports, have expressed interest
in installing RWSL early and bearing some of the costs.
                                                                               10


Timing the installation of RWSL in-ground infrastructure is critical for these
airports as they are both undergoing major runway construction projects. By
installing RWSL sites during airfield construction, airports and FAA (after system
certification) could save time and money. Lighting standards for RWSL have
already been established, and site preparation for the lighting portion of RWSL
could be initiated in advance. FAA is working with airport authorities at both Los
Angeles and Chicago to determine if this is a feasible effort.

The RWSL program office needs to work with FAA’s Airports line of business to
identify other airports that are scheduled to receive RWSL and have ongoing or
planned runway improvements. This is important to ensure that RWSL in-ground
infrastructure is deployed concurrently with the airfield construction to avoid
duplicative construction efforts and costs.

Retaining RWSL Program Expertise When Transitioning From R&D to
Acquisition
At DFW, the airport operator, FAA management officials, and pilots praised the
efforts of the FAA Surface Safety group and its contractor during R&D testing for
RWSL. They also commended the group’s responsiveness and efficiency in site
adaptation of the system. FAA’s Surface Safety group and its federally funded
R&D contractor (MIT Lincoln Laboratory) have led the R&D process for RWSL
since 2001 and are very familiar with the project. Mitigating individual site
anomalies is vital to successfully implementing RWSL, and other planned sites
could benefit from the “lessons learned” at DFW.

FAA should take advantage of lessons learned during the past 5 years of the
RWSL research and development phase at DFW. FAA’s own risk assessment
indicated that the RWSL safety logic must be designed so that it can adapt to any
airport. To address this issue, the risk assessment team recommended that FAA
ensure that lessons learned during R&D be passed on to the software designer of
RWSL. FAA needs to ensure that the RWSL acquisition program office benefits
from the DFW group’s RWSL expertise.

Equipping Vehicles With Transponders so They Can Be Detected by
RWSL
RWSL works with ASDE-X, which is designed to reduce the risks of ground
collisions caused by vehicle operators by providing positive identification of
vehicles operating on the airport surface. However, this safety feature will be
limited unless airport vehicles are equipped with transponders. If airports equip
their vehicles with transponders, they could reduce the risks of these types of
runway incursions since RWSL could then track those movements under all
conditions.
                                                                                                      11


In addition, during rain, RWSL safety logic filters out ground radar data and uses
only multilateration, which requires a transponder. Without transponders, vehicles
that enter a runway will not trigger the RWSL to “turn on”; therefore, pilots may
not get the warning they need to avoid potential runway incursions caused by
vehicle deviations. It is important for FAA to encourage airport officials to equip
vehicles with transponders since about 16 percent of all runway incursions are
caused by vehicle operators; these types of incursions can pose serious safety
risks.

In our October 2007 report on ASDE-X, 1 we recommended that FAA encourage
airport officials to equip vehicles with transponders so that ASDE-X can provide
positive identification of vehicles. Those actions are equally important for RWSL
to work effectively.

Mitigating Delays in FAA’s Master Schedule To Limit Adverse Impacts on
RWSL Deployment
RWSL operates with ASDE-X and cannot be commissioned at a specific airport
until ASDE-X is commissioned at that airport. The initial investment decision for
RWSL identifies 19 airports for planned RWSL implementation and includes a
proposed deployment master schedule with November 2009 for the first
operational site and March 2014 for the final site.

FAA research and development officials told us that they built a 1-year buffer into
FAA’s proposed RWSL waterfall to compensate for potential delays in the
ASDE-X national deployment. The RWSL program office subsequently informed
us that it plans to implement RWSL concurrently with the ASDE-X schedule to
expedite RWSL deployment, completing all sites by the end of 2011. Therefore, it
is imperative that ASDE-X remains on schedule since any delays in its
implementation would trigger cascading delays in RWSL implementation.

Our October report stated that FAA had not met its deadlines for installing
ASDE–X equipment. During FY 2006, FAA only commissioned four of the seven
planned ASDE-X systems. We reported that these schedule delays occurred
because of FAA’s failure to establish a realistic master schedule through ASDE-X
completion that outlines when all activities associated with commissioning each
site for operational use will be completed. In response to our draft report, FAA
provided us with an updated waterfall schedule. However, the schedule was
incomplete and did not address the intent of our recommendation that system
deployment should not be considered complete until all planned capabilities are
fully tested and in place. We requested that FAA provide us with updated

1
    OIG Report Number AV-2008-004, “FAA Needs To Improve ASDE-X Management Controls To Address Cost
    Growth, Schedule Delays, and Safety Risks,” October 31, 2007. OIG reports can be found on our website:
    www.dot.oig.gov.
                                                                                                          12


information regarding this issue. It will be important that FAA keep ASDE-X on
schedule to avoid delays in both RWSL and ASDE-X implementation.

Expediting RWSL Implementation
FAA has made progress in developing RWSL thus far. FAA successfully
conducted R&D and live operational testing at DFW, and FAA’s Joint Resource
Council approved the RWSL initial investment decision in July 2007. The initial
investment decision document included recommendations that FAA finalize
(definitize) its acquisition strategy and return it to the JRC for the final investment
decision (which sets the stage for system-wide implementation) no later than
November 2007.

Obtaining approval from the JRC for the final investment decision is a key
milestone because FAA cannot issue a contract for RWSL implementation until
the program office obtains that approval. However, the target date for the final
investment decision is currently set for July 2008. The RWSL program officials
stated that the final investment decision milestone was established to provide
sufficient time to prepare the acquisition package, which is required to award a
contract.

Expediting the RWSL acquisition is important since the JRC directed the program
office, during the initial investment decision, to review alternatives to accelerate
the RWSL deployment schedule. In our opinion, setting the target date for the
final investment decision 1 year after the approval of the initial investment
decision to complete the acquisition package does not meet that direction.
Accordingly, we believe that the program office needs to expedite preparation of
the acquisition package and establish a new target date for the final investment
decision milestone in order to accelerate RWSL deployment.

There is also significant congressional support for expediting RWSL deployment.
In the FY 2008 House Appropriations Bill, 2 the Committee provided $20 million
for RWSL, an increase of $14.7 million over the budget request.




2
    H. Rep. No. 110-238, “Departments of Transportation and Housing and Urban Development and Related Agencies
    Appropriations Bill, 2008,” (July 18, 2007).
                                                                                13



RECOMMENDATIONS
To limit any potential risks that could impact the successful and timely
implementation of RWSL, we recommend that FAA:

 1. Modify the RWSL software design to address the differences between the
    ASDE-X prototype system used at DFW for RWSL and the national
    ASDE-X system being deployed at other airports.

 2. Ensure that the RWSL program office (a) coordinates with FAA’s Airports
    line of business to identify locations that are scheduled to receive RWSL and
    have ongoing or planned runway improvements and (b) secures agreements
    with those airports to deploy RWSL in-ground infrastructure concurrently
    with airfield construction to avoid duplicative construction efforts and costs.

 3. Ensure that existing RWSL program expertise is retained during the system’s
    transition from R&D to the acquisition phase to capitalize on lessons learned
    at DFW in addressing system and site-specific anomalies.

 4. Expedite preparation of the acquisition package to make the final investment
    decision earlier than the current July 2008 milestone to accelerate RWSL
    deployment as directed by Congress and the JRC.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with a draft of this report on November 20, 2007, and received
FAA’s reply on December 20, 2007. FAA concurred with each of our
recommendations and provided appropriate planned actions and target dates.

 • Recommendation 1: FAA stated that the RWSL program office is developing
   the requirements for the needed ASDE-X interfaces and will implement the
   software by September 30, 2009.

 • Recommendation 2: FAA stated that the RWSL program office is in the
   process of coordinating with the Airports line of business and is working
   towards securing agreements with specific airports by September 30, 2008.

 • Recommendation 3: FAA stated that the RWSL program office has been
   coordinating with the R&D office and MIT Lincoln Laboratory to create a
   transition plan and ensure an efficient transfer of technology and lessons
   learned. FAA stated that these actions will be completed by March 31, 2008.
                                                                                14


 • Recommendation 4: FAA stated that the RWSL program office is exploring
   different options to expedite the acquisition and will issue a Request for Offer
   by February 2008.

FAA also provided several general comments, such as referring to the ASDE-X
system at DFW as a prototype system. We incorporated FAA’s suggested changes
as appropriate. FAA’s response is included in the appendix to this report.

ACTIONS REQUIRED
FAA’s response and planned actions address the intent of our recommendations.
Therefore, we consider these recommendations resolved.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please contact Lou Dixon
Assistant Inspector General for Aviation and Special Program Audits, at
(202) 366-0500 or Dan Raville, Program Director, at (202) 366-1405.



                                        #


cc: FAA Acting Deputy Administrator
    Anthony Williams, ABU-100
                                                                                 15



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. As required by those standards, we obtained evidence that we
believe provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted this review between June 2007 and November
2007 using the following methodology.

To evaluate the viability of RWSL and FAA’s progress in implementing this
technology, we:

 • reviewed RWSL research and development documents, including operational
   concept, operational evaluation (live testing) reports, pilot survey results, and
   the research management plan.

 • interviewed FAA Air Traffic Organization officials from the Technology
   Development—Surface Systems Group; Financial Services, Capital
   Expenditures—F&E Requirements NAS Baseline Management Group; and
   FAA Airport Safety and Standards representatives.

 • conducted a site visit to DFW airport where RWSL is being tested and
   observed RWSL in operation from the air traffic tower and airport surface.

 • interviewed DFW’s local FAA Air Traffic Management officials, National Air
   Traffic Controllers Association representative, airport operator, airline pilot
   union and safety officials (Allied Pilots Association and ALPA), and
   contractor representatives from MIT Lincoln Laboratory.

 • met with ALPA headquarters officials to discuss their concerns.

We did not rely on information contained in data bases maintained by the Agency
as part of this review. Therefore we did not conduct a data reliability assessment.




Exhibit A. Scope and Methodology
                                                          16



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


  Daniel Raville                       Program Director

  Mary (Liz) Hanson                    Project Manager

  Annie Glenn Bungo                    Senior Analyst

  Benjamin Huddle                      Analyst

  Tasha Thomas                         Analyst

  Andrea Nossaman                      Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                            17



APPENDIX. AGENCY COMMENTS

                    Federal Aviation
                    Administration


Memorandum
Date:          December 20, 2007
To:            Robin Hunt, Acting Assistant Inspector General for Aviation and Special
               Program Audits
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Anthony Williams, x79000
Subject:       OIG Draft Report: FAA’s Implementation of Runway Status Lights (RWSL)
               Federal Aviation Administration



Thank you for providing us the opportunity to review and comment on your draft report
entitled: “FAA’s Implementation of Runway Status Lights Federal Aviation Administration”,
dated November 20.

Below is the agency’s response to each of the recommendations cited in your report. While
the FAA concurs with all the recommendations, we are of the opinion that various areas of the
report will require additional clarification before the final report is released. Following the
response to the recommendations, we have provided comments addressing our concerns to
statements made in the body of the report.

Recommendation 1. Modify RWSL software design to address the differences between the
ASDE-X system used at DFW for RWSL and the national ASDE-X system that FAA is
deploying at other airports.

FAA Response: Concur. The RWSL program office is developing the requirements
governing the interfaces to the Airport Surface Detection Equipment Model X (ASDE-X) as
part of the RWSL acquisition process. The specification will state that the RWSL processor
shall receive surveillance, status, and operational configuration data from the ASDE-X
system in accordance with the latest version of the ASDE-X Interface Description Document.
The RSWL software will be implemented by September 30, 2009.




Appendix. Agency Comments
                                                                                          18


Recommendation 2. Ensure that the RWSL program office (a) coordinates with FAA’s
Airports line of business to identify locations that are scheduled to receive RWSL and have
ongoing or planned runway improvements and (b) secures agreements with those airports to
deploy RWSL in-ground infrastructure concurrently with airfield construction to avoid
duplicative construction efforts and costs.

FAA Response: Concur. The RWSL program office is coordinating with the Airports line
of business and also plans to secure agreements with airports. The RWSL program office,
based on the availability of funding and the alignment of schedules, will pursue concurrent
airfield construction where possible. Planning dates will be coordinated with airfield
construction dates. We anticipate this to occur by September 30, 2008.

Recommendation 3. Ensure that existing RWSL program expertise is retained during the
system’s transition from R&D to acquisition phase to capitalize on lessons learned at DFW in
addressing system and site-specific anomalies.

FAA Response: Concur. The RWSL program office has been coordinating with the R&D
offices. Several meetings have been held to gain a better understanding of the R&D
activities, not only concerning the prototype RWSL system at Dallas/Ft. Worth, but also
future R&D technology development activities related to runway incursions. As a result of
these meetings a transition plan is being developed by the R&D office to ensure an efficient
transfer of technology and lessons learned. The RWSL program office has also had meetings
with Lincoln Laboratories, the developer of the prototype system software, to discuss the
system, as well as lessons learned. RWSL program office personnel went to Dallas/Ft. Worth
to view the prototype system and meet with individuals at the airport involved in the RWSL
prototype operation. Meetings have been held with the R&D office, Lincoln Laboratories,
and other functional organizations to further discuss and execute the technology transfer.
Action will be considered complete in 2Q, FY08 (March 31, 2008) when the program office
funds Lincoln Laboratories for technical support.

Recommendation 4. Expedite preparation of the acquisition package to make the final
investment decision earlier than the current July 2008 milestone to accelerate RWSL
deployment as directed by Congress and the JRC.

FAA Response: The FAA concurs with this recommendation and has been exploring
different acquisition strategies for the acceleration of the schedule. RWSL Request for Offer
(RFO) release is scheduled for February 2008.


Note: FAA’s response also included minor general comments (e.g., suggested wording
changes) that did not have any bearing on our report’s findings and recommendations. We
incorporated these suggestions as appropriate but did not include them in the appendix.




Appendix. Agency Comments
The following page contains textual versions of the graphs and charts found in this
document. This page was not in the original document but has been added here to
accommodate assistive technology.
             FAA’s Implementation of Runway Status Lights (RWSL)
                             508 Compliant Presentation

Figure 1. Diagram of Entrance Lights

Diagram shows aircraft stopped at hold line by red lights. This alerts the pilot to wait
until runway is clear before entering.

Figure 2. OIG Photo of Runway Entrance Lights

At Dallas-Forth Worth International Airport, the audit team observed illuminated
runway entrance lights signaling that an intersecting runway, Runway 18L, was not
clear for entrance due to a departing aircraft on the runway.

Figure 3. Diagram of Take-Off Hold Lights
Diagram shows take-off hold lights illuminating red to alert a pilot waiting to take off
that another aircraft or vehicle is either on or about to enter the runway in front of the
aircraft.

Figure 4. OIG Photo of Take-Off Hold Lights

At Dallas-Forth Worth International Airport, the audit team observed take-off hold
lights illuminate red on runway 18L. This alerted the pilot awaiting take-off that the
runway was unsafe to depart due to an aircraft crossing the runway in the distance.

Figure 5. Diagram of RWSL Surveillance Sources

The diagram shows RWSL in use at an airport. It depicts the use of three sources of
surveillance input to provide position of aircraft and vehicles on the airport surface so
that the light technology can operate. The three sources depicted are: airport surface
radar, transponder multilateration, and approach radar.

Figure 6. Number of Runway Incursions at Dallas-Forth Worth International
Airport, Runway 18L/36R Where RWSL Is Installed (Note: Runway incursions
are graded by severity of the incident [A through D]. Category A is the most severe,
and Category D is the least severe.)

In the 29 months before RWSL testing started at Dallas-Fort Worth International
Airport (October 1, 2002 through February 28, 2005), there were 10 runway
incursions. Four of these were Category C incidents, and six were Category D
incidents. In the 29 months after RWSL testing started at Dallas-Fort Worth
International Airport (March 1, 2005 through July 31, 2007), there were three runway
incursions. All three incursions were Category D incidents (least severe category).
